             OFFICE OF
      THE INSPECTOR GENERAL
  SOCIAL SECURITY ADMINISTRATION

  THE SOCIAL SECURITY ADMINISTRATION’S
REPORTING OF HIGH-DOLLAR OVERPAYMENTS
     UNDER EXECUTIVE ORDER 13520 IN
             FISCAL YEAR 2012

   December 2012        A-15-13-13068




  EVALUATION
    REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
MEMORANDUM

Date:      December 28, 2012                                          Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   The Social Security Administration’s Reporting of High-dollar Overpayments Under
           Executive Order 13520 in Fiscal Year 2012 (A-15-13-13068)


           OBJECTIVE
           Our objectives were to review the Accountable Official’s Quarterly High-Dollar
           Overpayment Reports to the Office of the Inspector General (OIG), as required by
           Executive Order 13520, Reducing Improper Payments and Eliminating Waste in Federal
           Programs, for the quarters ended December 2011 and March, June, and September
           2012 and determine whether the (1) method used for identifying high-dollar
           overpayments detected overpayments meeting the Executive Order criteria and
           (2) Agency complied with all requirements of the Executive Order.

           BACKGROUND
           When the Government makes payments to individuals and businesses, such as
           program beneficiaries, grantees, or contractors or on behalf of program beneficiaries, it
           must make every effort to confirm the right recipient is receiving the correct payment.
           On November 20, 2009, the President issued Executive Order 13520 1 “. . . to reduce
           improper payments by intensifying efforts to eliminate payment error, waste, fraud, and
           abuse in the major programs administered by the Federal Government, while continuing
           to ensure that Federal programs serve and provide access to their intended
           beneficiaries.” 2

           As part of the Executive Order, each agency head is required to submit to the agency’s
           OIG and the Council of Inspectors General on Integrity and Efficiency (CIGIE) a
           quarterly report on high-dollar overpayments identified by the agency, subject to Federal




           1
            Executive Order 13520, Reducing Improper Payments and Eliminating Waste in Federal Programs
           (November 20, 2009), 74 Fed. Reg. 62201 (November 25, 2009).
           2
               Id. at Section 1.
Page 2 – The Commissioner


privacy policies and to the extent permitted by law. 3 The report shall describe any
actions the agency has taken or plans to take to recover improper payments, as well as
any actions the agency intends to take to prevent improper payments from occurring in
the future. 4 According to Office of Management and Budget (OMB) guidance, 5 a
high-dollar overpayment exceeds 50 percent of the correct amount of the intended
payment where

1. the total payment to an individual exceeds $5,000 as a single payment or in
   cumulative payments for the quarter or
2. the payment to an entity 6 exceeds $25,000 as a single payment or in cumulative
   payments for the quarter.

Examples of overpayments that would need to be included in an agency’s quarterly
report on high-dollar overpayments include the following.

1. A single payment or cumulative payments to the wrong individual or entity that
   exceeds the respective $5,000 or $25,000 limit.
2. A single payment or cumulative payments to the correct individual of $6,500 when
   the intended amount was $3,000 (the payment is more than 50-percent higher than
   the intended amount, and the total payment is above $5,000, thus meeting both
   criteria to qualify as a high-dollar improper payment to an individual).
3. Cumulative amounts of overpayments to an entity that exceed the 50-percent and
   $25,000-threshold during a quarter (for example, even if an agency has an ongoing
   relationship with an entity and typically corrects overpayments or underpayments in
   its next payment cycle, it would need to report these improper payments if they are
   above the 50 percent and $25,000 amount for the quarter). 7




3
  All Agencies with programs susceptible to significant overpayments under the Improper Payments
Information Act of 2002 (IPIA) are required to submit reports on high-dollar overpayments. The Agency
has conducted risk assessments on each program to identify the programs susceptible to significant
overpayments and have concluded that administrative payments do not meet the criteria for further
improper payment reporting. Therefore, the Agency’s high-dollar reporting only focuses on benefit
payments.
4
    Id. at Section 3.(f).
5
 OMB Circular A-123, Management’s Responsibility for Internal Control, M-10-13, Appendix C, Part III,
Section C)3), Agency Head Quarterly High-Dollar Report to the IG, page 17, March 22, 2010.
6
  An entity is a non-individual that owes an outstanding improper payment. The term entity excludes an
individual acting in either a personal or commercial capacity (that is, a sole proprietor) and Federal, State,
and local government agencies. Id. at Section C)4)n), How should agencies identify entities that have
received the greatest amount of outstanding improper payments in high-priority programs?, page 22.
7
    Id at Section C)3), page 17.
Page 3 – The Commissioner


STEWARDSHIP REVIEWS

The Office of Quality Performance (OQP) conducts stewardship reviews to examine the
non-medical elements in the Old-Age, Survivors and Disability Insurance (OASDI) and
Supplemental Security Income (SSI) programs related to the payment accuracy and
entitlement/eligibility of benefit payments made during a sample period. Each month,
OQP selects a statistical sample of OASDI beneficiaries who received a payment(s)
during the review period. For each sample selected, the beneficiary or representative
payee is interviewed; collateral contacts are made, as needed; and all non-medical
factors of entitlement are redeveloped as of the current sample month. The findings are
input into a national database for analysis and report preparation.

IMPROPER PAYMENTS

Each year, the Social Security Administration (SSA) reports payment accuracy rates for
the OASDI and SSI programs based on its stewardship reviews. The Agency uses
these reviews to report on the accuracy of benefit payments. Each year, SSA reports
over- and underpayments from its stewardship reviews of non-medical aspects of the
Old-Age and Survivors Insurance (OASI), Disability Insurance (DI), and SSI programs.
In accordance with OMB’s guidelines implementing the provisions of the Improper
Payments Information Act of 2002 (IPIA), 8 SSA reports as improper those payments
that result from (1) its mistake in computing the payment, (2) its failure to obtain or act
on available information affecting the payment, (3) a beneficiary’s failure to report an
event, or (4) a beneficiary’s incorrect report.

SSA issued its four high-dollar reports to the OIG on January 31, April 30, July 19, and
October 23, 2012 for the quarters ended December 31, 2011 and March 31, June 30,
and September 30, 2012, respectively. Based on its sample of annual payment
accuracy reviews from a representative sample of OASDI and SSI benefit payment
cases, the Agency did not report any instances that met the definition of a high-dollar
overpayment for the Fiscal Year (FY) 2012 period October 1, 2011 through
September 30, 2012.

RESULTS OF REVIEW
We reviewed reports on quarterly high-dollar overpayments for the quarters ended
December 31, 2011, and March 31, June 30, and September 30, 2012 to ensure the
Agency implemented a methodology for identifying high-dollar overpayments that
detected overpayments and addressed all the Executive Order’s requirements. SSA’s
methodology for identifying high-dollar overpayments was approved by OMB; however,
the Agency did not report all cases identified by this methodology because of a
difference in interpretation of how a case met the Executive Order requirements.




8
    Pub. L. No. 107-300, 116 Stat. 2350 (codified as amended in 31 U.S.C. § 3321 note).
Page 4 – The Commissioner


AGENCY’S METHODOLOGY FOR IDENTIFYING HIGH-DOLLAR OVERPAYMENTS

We reviewed the methodology the Agency used to identify high-dollar overpayments to
determine whether the method detected overpayments that met the Executive Order’s
criteria. We gained an understanding of how the Agency used the results from the
stewardship reviews in determining whether any cases met the criteria for a high-dollar
overpayment. We also reviewed the Agency’s support for the stewardship reviews that
were analyzed for each quarter and noted two cases that appeared to have met the
Executive Order criteria. We also noted that although the stewardship reviews provide
adequate results for determining the accuracy of payments, the data obtained during
the reviews provide limitations for properly analyzing cases as part of the reporting of
high-dollar overpayments.

Stewardship Sample Period Usually Included Only 1 Month of Payment Data

SSA received clarifications from OMB on April 27 and June 2, 2010 for reporting
high-dollar improper overpayments. OMB stated, “. . . that SSA should review improper
overpayments 9 identified during stewardship reviews (and any other relevant
processes), and, as needed, report quarterly that either no payments were identified, or
any payments that are identified.” OMB acknowledged that “SSA stated that it is highly
unlikely that the agency would identify improper overpayments to individuals, including
via its stewardship reviews in SSI that would meet the criteria in the Executive Order’s
implementing guidance….” During, or shortly after the end of each FY, OQP conducted
stewardship reviews of the OASDI and SSI payments issued in that FY.

OQP bases its stewardship reviews on a monthly sample selection from all OASDI
beneficiaries who were receiving a payment(s) during the review period and were in
current pay status during the sample period. The SSI sample is drawn from all SSI
recipients who received a payment during the FY regardless of their current pay status.
For example, for SSI, if the month sampled was August, the sample period would have
been July 2 through August 1. The OASDI sample reviews all payments on a Social
Security number made in a calendar month. For the FY 2011 stewardship reviews,
approximately 88 OASI, 46 DI, and 354 SSI cases were reviewed each month.

Once a case is sampled, the Electronic Quality Assurance (eQA) system calculates the
recurring and retroactive payments 10 for the sample period. The eQA system assists
OQP in overseeing the completeness and accuracy of OASDI and SSI claims. The
sample dollars can be adjusted during the review if they are incorrect. The data
included in the system reflect the payments that were issued only in the sample period
and therefore may not reflect the total benefit payments and/or overpayments that

9
  SSA distinguishes an improper payment from an overpayment using the definition agreed on with OMB.
If a payment is considered avoidable, it is characterized as improper. See Appendix C for the definition of
improper.
10
  Recurring payments are regular monthly payments and a retroactive payment is a payment issued
during the sample period which is for a month(s) before the sample month.
Page 5 – The Commissioner


occurred in a quarter for that case. For example, in the SSI review, if a case was
sampled in August 2012, any recurring or retroactive payments made on that case from
July 2 through August 1 were calculated by eQA and included in the system. The
sample dollars would be verified during the review and adjusted, if necessary. The
amount of payments issued to the beneficiary in the remainder of the quarter (that
is, July 1 and August 2 through September 30) would not be included in eQA.
Therefore, the data reviewed for reporting on quarterly high-dollar overpayments usually
do not include the total benefit payments and/or overpayments to a beneficiary or
recipient that occurred in the entire quarter. Since stewardship reviews usually include
payment amounts for one month and do not include payments actually made for all
3 months in a quarter, the Agency may not identify high-dollar overpayments.

Stewardship Review Results Include Payment Data from Previous Quarters

For the high-dollar reports issued in the quarters ended December 31, 2011 and
March 31, June 30, and September 30, 2012, SSA used the results documented in the
eQA system for the sample cases cleared during the reporting period. 11 For example, if
a case was sampled in April 2012, but the review was not completed until September
2012, the payment data for the sample period March 2 through April 1 would
be included in the review for the quarter ended September 2012. According to OQP, it
is not possible to provide findings for cases sampled in each quarter because the field
sites have until the end of January to clear cases sampled for the previous October
through September, and the consistency review of these cases is not completed until
the end of February. Further editing and review of anomalies continue throughout most
of March. Therefore, in some cases, OQP may have to wait over 1 year before the case
is fully completed.

We reviewed the supporting documentation OQP provided for the quarters ended
December 31, 2011 and March 31, June 30, and September 30, 2012 to determine the
number of cases that were included in the analysis and sampled and cleared in
the respective quarters. Based on this support, in total for FY 2012 quarters, only
9 percent of OASDI and 6 percent of SSI cases included in the review were sampled
and cleared during the same FY 2012 quarter. Because stewardship cases can take
several months to clear, the data reviewed for the high-dollar overpayment reports
under the Executive Order will typically include payments that relate to prior quarters.
Therefore, since over 93 percent of the data reviewed in the FY 2012 quarters related to
a previous period, only a small percentage of payments issued in the FY 2012 quarters
was included in the analysis for the high-dollar report. SSA stated, “. . . the stewardship
review was never intended to capture quarterly payment data”; therefore, as was
previously stated, it is highly unlikely that the Agency would identify improper
overpayments that would meet the criteria in the Executive Order’s implementing
guidance.



11
   Per OQP, the term “cleared” is used to define the point when the OQP field site has input its review
findings into eQA.
Page 6 – The Commissioner


Potential High-Dollar Cases Identified in Agency’s Support

We obtained the Agency’s supporting documentation for the stewardship cases
analyzed for each quarter in FY 2012. We noted one case in the March quarter and
one case in the September quarter that appeared to have met the Executive Order
criteria based on our interpretation that a high-dollar overpayment is in excess of
50 percent of the correct amount that should have been paid to the beneficiary.
Because SSA had interpreted this section of the Executive Order differently and
believed that the overpayment should have been in excess of 50 percent of what was
paid to the beneficiary, these cases were not reported. As of December 12, 2012, the
Agency was able to provide documentation showing that the overpayment amounts for
both cases had been refunded to the Agency and therefore no additional reporting or
tracking of these cases is necessary. We have requested clarification from OMB on the
proper interpretation of the Executive Order to ensure all applicable cases are included
in future reports. Refer to Appendix D for an example of how the case from the
March 2012 quarter was interpreted.

OIG IDENTIFIED POTENTIAL HIGH-DOLLAR OVERPAYMENTS USING AN
ALTERNATIVE METHOD

In two previous reviews, 12 we designed a methodology for identifying high-dollar
overpayments by using data from one segment of the Master Beneficiary Record
(MBR); Recovery of Overpayments, Accounting and Reporting (ROAR) System; and
SSR. We focused on OASDI beneficiaries and SSI recipients who received single or
cumulative payments in excess of $5,000 for each quarter. 13 We matched the
populations against the overpayment data on the ROAR and SSR to identify
beneficiaries and recipients who may have met the payment criteria in the Executive
Order and had an overpayment established on their record.

We further analyzed the populations to identify individual cases that met the criteria for
reporting as a high-dollar overpayment according to the Executive Order. Based on our
analyses, we identified 10 OASDI and 5 SSI cases that potentially met the Executive
Order’s criteria. For each of these cases, we determined the beneficiary or recipient
obtained payments in excess of $5,000 in one of the quarters from October 2009
through September 2011. 14 During the quarter, each beneficiary or recipient also had
an overpayment in excess of 50 percent of the correct amount of the intended payment
for that quarter.


12
  SSA OIG, The Social Security Administration’s Reporting of High-Dollar Overpayments Under
Executive Order 13520 (A-15-10-21142), December 2010, and SSA OIG, The Social Security
Administration’s Reporting of High-Dollar Overpayments Under Executive Order 13520 in Fiscal Year
2011 (A-15-11-01140), December 2011.

13
  For our December 2010 review, we analyzed payment data for October 2009 through June 2010. For
our December 2011 review, we analyzed payment data for October 2010 through September 2011.
14
     We obtained payment data for each quarter except September 2010 due to time limitations.
Page 7 – The Commissioner


As a result of our analyses for both reviews, SSA reviewed the 15 cases and confirmed
that 9 OASDI cases and 1 SSI case may have met the criteria to potentially be reported
as a high-dollar overpayment under the Executive Order. SSA stated it could not
definitely determine these payments were improper unless it conducted a full
stewardship review for these cases that verified all non-medical factors of eligibility.
SSA reiterated that OMB fully supported the methodology it used each quarter to
identify high-dollar improper overpayments. SSA recognizes this method will not
capture all high-dollar overpayments; however, when it identifies a case, the case is
unlikely to provide further insight into the causes of OASDI and SSI improper payments.
Because SSA’s methodology for identifying and reporting high-dollar overpayments had
not changed since we conducted the two previous reports, we did not conduct a data
analysis for this review.

REQUIREMENTS OF EXECUTIVE ORDER ADDRESSED BY THE AGENCY

In March 2010, OMB issued guidance 15 for implementing the requirements of the
Executive Order 13520. We reviewed the Accountable Official’s Quarterly High-Dollar
Overpayment Reports for the quarters ended December 2011 and March, June, and
September 2012 to ensure SSA addressed all of the Executive Order’s requirements.

Required Information Included in Reports

According to OMB’s guidance, all agencies with programs susceptible to significant
overpayments under the IPIA are required to submit reports on high-dollar
overpayments. The report shall

1. list all high-dollar overpayments identified by the agency during the quarter;
2. describe whether each high-dollar overpayment was made to an entity or individual,
   and the city/county and State where that entity or individual was located;
3. list the program responsible for each high-dollar overpayment error;
4. describe any actions the agency has taken, or plans to take, to recover high-dollar
   overpayments (the report should address overall actions and strategies and not
   focus on individual payments); and
5. describe any actions the agency will take to prevent overpayments from occurring in
   the future (the report should address overall actions and strategies, and not focus on
   individual payments). 16

Agencies shall complete, submit, and publicize these reports by the last day of each
quarter. OMB clarified this due date in June 2010, stating, “. . . future high-dollar
quarterly reports can be submitted up to 30 days after the end of the quarter (for

15
  OMB Circular A-123, Management’s Responsibility for Internal Control, Requirements for Implementing
Executive Order 13520: Reducing Improper Payments (Appendix C, Part III), March 22, 2010.
16
     OMB Circular A-123, Part III (C)(3)(g).
Page 8 – The Commissioner


example, for the quarter ending June 30th agencies should submit this report to their
OIG and OMB by July 30th, by October 30th for the quarter ending September 30th,
etc.).”

The guidance also states that if an agency has no high-dollar overpayments during the
reporting period, it need only send a letter informing the Controller of OMB that the
agency had no high-dollar overpayment errors.

Based on the methodology SSA used for the quarters ended December 31, 2011 and
March 31, June 30, and September 30, 2012, SSA did not report any high-dollar
overpayments that it deemed reportable based on its interpretation of the Executive
Order. The Agency submitted emails to the Controller of OMB on January 31, April 30,
July 19, and October 23, 2012, stating that, based on the annual payment accuracy
reviews from a representative sample of OASDI and SSI cases, no cases met SSA’s
definition of a high-dollar overpayment. All four of these reports were submitted to the
OIG and OMB timely.

Website Submission

According to OMB guidance, within 15 days of submitting the quarterly high-dollar report
to the OIG, agencies shall make these reports available to the public by, at a minimum,
submitting them to the improper payments Website. 17 If the agency has no high-dollar
overpayments for that period, it shall submit a “no report” status to the improper
payments Website. On January 31, April 30, July 19, and October 23, 2011, the
Agency submitted emails to OMB stating that no improper payments were identified
during each quarter. Although the Agency is required to submit these reports to the
improper payment Website, OMB has acknowledged that the Website does not yet
have the functionality to allow agencies to post the high-dollar reports to the Website but
encourages Agencies to post reports to their own sites. Therefore, to ensure the public
can view these reports, SSA updated its Website 18 with information relating to
high-dollar overpayments for the quarters ended December 2011 and March, June, and
September 2012 within 15 days of submitting the report to the OIG.

OMB Guidance

In the March 2010 OMB-issued guidance, it states that an agency should report
high-dollar overpayments that are in excess of 50 percent of the correct amount of the
intended payment where the total payment to an individual exceeds $5,000 as a single
payment or in cumulative payments for the quarter. 19 SSA would report high-dollar
improper overpayments when an overpayment was recorded on a beneficiary's record
during the same quarter the beneficiary's payment(s) exceeded $5,000. For example,

17
     http://www.paymentaccuracy.gov.
18
     http://www.ssa.gov/improperpayments/.
19
     OMB Circular A-123, Part III (C)(3)(e).
Page 9 – The Commissioner


if, during SSA's stewardship reviews, it found an improper overpayment on a
beneficiary's record in August 2012, and the beneficiary's payment(s) exceeded
$5,000 for the quarter July 1 through September 30, 2012, they would report this
improper overpayment in the September 2012 quarterly high-dollar overpayment report
if it exceeded 50 percent of the correct payment.

OMB guidance further states that the high-dollar overpayment report shall, ". . . list all
high-dollar overpayments identified by the agency during the quarter." 20 We confirmed
with OMB that, “. . . high-dollar improper payments should be reported regardless of
when the payment was made.” For example, in our previous review 21 of the FY 2011
quarters, we identified 40 overpayments that were recorded on the beneficiary's record
in FY 2011. These overpayments related to benefit payments from 2010. However, the
overpayments were not recorded on the beneficiary's records until FY 2011. In each
case, the beneficiary's payments exceeded $5,000 as a single payment or in cumulative
payments for at least one quarter in FY 2010, and the overpayment exceeded
50 percent of the correct amount of the intended payment in 2010, further meeting the
criteria of a high-dollar overpayment. These beneficiary's overpayments could have
been reported in the FY 2011 quarterly reports because the Agency identified them
during a FY 2011 quarter. Although these cases were identified using a different
methodology than the Agency, it is unlikely that these types of cases would be identified
during the stewardship reviews since the reviews reflect only payment data for the
sample period and would likely not include payments from a previous period. The
Agency should ensure that it reports any high-dollar overpayments identified during the
stewardship reviews even if the payments relate to a different period.

CONCLUSION
Overall, our review determined that, although the Agency addressed all requirements of
Executive Order 13520, based on the results obtained using the stewardship sample
cases, the methodology for identifying high-dollar overpayments did not detect existing
overpayments the Agency deemed reportable based on SSA’s interpretation of the
criteria of the Executive Order. While the data obtained through the stewardship
reviews provide adequate results for payment accuracy, the data obtained during the
reviews provides limitations for properly analyzing cases as part of the reporting of high-
dollar overpayments. The payment information used for reviewing high-dollar
overpayments for the quarters ended December 31, 2010 and March 31, June 30, and
September 30, 2011 only included payments made during a 1-month period, which in
most cases was outside the quarter reported on. By using data that do not include
payments actually made for all 3 months in a quarter, the Agency may not identify
high-dollar overpayments. Additionally, because stewardship cases can take several
months to be cleared, the data reviewed for the high-dollar reports will typically include
mostly payments that relate to prior quarters.

20
     OMB Circular A-123, Part III (C)(3)(g).
21
  The Social Security Administration’s Reporting of High-Dollar Overpayments Under Executive Order
13520 in Fiscal Year 2011 (A-15-11-01140), December 2011.
Page 10 – The Commissioner


Our review also determined that, although the Agency reported no high-dollar
overpayments during the four quarters under review, one case sampled in the March
quarter and one case sampled in the September quarter appeared to have met the
Executive Order criteria. During our two previous reviews we also concluded based on
our data analysis that high-dollar overpayments may have been identified if SSA had
employed a methodology focused on analyzing data extracts from the MBR, ROAR, and
SSR. The Executive Order requires that agency heads submit the quarterly reports on
high-dollar overpayments to boost transparency among agencies and the public. 22 The
Agency did not take additional steps to identify and report on the high-dollar
overpayments using other information or report on cases identified that potentially met
the Executive Order criteria.

Going forward, the Agency should increase transparency and report any cases that
could potentially meet the requirements of the Executive Order identified through the
stewardship reviews.

OTHER MATTERS
During our review of OQP’s stewardship cases for the September 2012 quarter, we
observed a case where a recipient received approximately $6,892 in the sample period,
February 2 through March 1, 2012, and had an overpayment around $826 noted
because of the stewardship review. We reviewed this case further to determine
whether it met the criteria for high-dollar overpayment reporting. During this review, we
found that $6,066 of the amount was actually paid to the recipient to clear an
underpayment that had been incorrectly recorded in December 2011. In September
2012, the Agency sent the recipient an overpayment letter, requesting repayment of the
$6,066, which the recipient repaid later in the month. During discussions with OQP, we
learned that the $6,066 payment should not have been made directly to the recipient;
rather, the Agency should have performed an accounting adjustment to the record to
clear the underpayment. We believe the Agency needs to examine its controls around
the process for making accounting adjustments to individual records to ensure
beneficiaries and recipients are receiving correct payment amounts.

AGENCY COMMENTS
The Agency disagreed with our conclusions that the two cases should have been
reported as high-dollar overpayments. The Agency is awaiting OMB response for
further clarification of what constitutes a high-dollar overpayment. The Agency is also
sending a request for OMB to clarify what dollar amount we would report and track in
the high-dollar report if a case does meet the OMB definition. See Appendix E for the
Agency Comments.


                                                Patrick P. O’Carroll, Jr.

22
     OMB Memorandum M-10-13, Issuance of Part III to OMB Circular A-123, Appendix C, March 22, 2010.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Defining Erroneous Payments
APPENDIX D – Interpretation of March 2012 Case
APPENDIX E – Agency Comments
APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                              Appendix A

Acronyms
 APP           Annual Performance Plan

 CIGIE         Council of Inspectors General on Integrity and Efficiency

 DI            Disability Insurance

 eQA           Electronic Quality Assurance

 Fed. Reg.     Federal Register

 FY            Fiscal Year

 IPIA          Improper Payments Information Act of 2002

 MBR           Master Beneficiary Record

 OASDI         Old-Age, Survivors and Disability Insurance

 OASI          Old-Age and Survivors Insurance

 OIG           Office of the Inspector General

 OMB           Office of Management and Budget

 OQP           Office of Quality Performance

 Pub. L. No.   Public Law Number

 ROAR          Recovery of Overpayments, Accounting and Reporting

 SSA           Social Security Administration

 SSI           Supplemental Security Income

 SSR           Supplemental Security Record

 U.S.C.        United States Code
                                                                    Appendix B

Scope and Methodology
To accomplish our objectives, we:

• Reviewed the Accountable Official’s Quarterly High-Dollar Overpayment Reports
  issued pursuant to Executive Order 13520, Reducing Improper Payments, for the
  quarters ended December 2011 and March, June, and September 2012.
• Reviewed applicable Federal laws.
• Reviewed applicable Office of Management and Budget guidance.
• Reviewed the Fiscal Year (FY) 2011 Stewardship Review Reports for the Old-Age,
  Survivors and Disability Insurance (OASDI) and Supplemental Security Income (SSI)
  programs.
• Requested data from the Office of Quality Performance to support the cases
  reviewed for the quarterly high-dollar overpayment reports.
• Analyzed the narrative of the Accountable Official’s Quarterly High-Dollar
  Overpayment reports to ensure compliance with all requirements of the Executive
  Order.

We determined the computerized data used during our review were sufficiently reliable
given our objective, and the intended use of the data should not lead to incorrect or
unintentional conclusions.

We performed our review from October through November 2012 in Baltimore, Maryland.
We conducted our review in accordance with the Council of the Inspectors General on
Integrity and Efficiency’s Quality Standards for Inspection and Evaluation.
                                                                                                                      Appendix C

Defining Erroneous Payments 1
The following table identifies the types of Social Security Administration (SSA) payments, programs affected, current reporting status,
reasons for the payments, and their classification. There are two classifications.
•      Unavoidable - Payments resulting from legal or policy requirements. These payments are not considered erroneous.
•      Avoidable - Payments that should be reflected in the erroneous payment estimate because they could be reduced through
       changes in administrative actions.

     Types of Payments           Program    Current Status              Reason for Overpayment/Underpayment                Classification
    Payments following a         DI 2 and   Not currently        When SSA is required by law to make payments during       Unavoidable
    cessation of eligibility     SSI 3      reflected as an      the appeals process, these payments are not erroneous.
    due to a continuing                     error
    disability review
    Payments made under          SSI        Reported as an       When due process requires that SSI payments continue,     Unavoidable
    the Goldberg-Kelly                      unavoidable          although the Agency has determined that a payment
    due-process Supreme                     erroneous            reduction or termination is in order, such payments are
    Court decision                          payment in the       not erroneous.
                                            APP 4
    Payments made                SSI        Reported as an       The law requires that SSI payments be made on the first   Unavoidable
    incorrectly because of                  unavoidable          of the month based on projected income for that
    program design                          erroneous            particular month. Changes in the recipient’s status can
                                            payment in the       occur during the month, which causes the recipient’s
                                            APP                  eligibility to change. Because SSA cannot prevent the
                                                                 overpayment from being made, this situation should not

1
    Table provided by SSA Office of Financial Policy and Operations in July 2010.
2
    Disability Insurance (DI).
3
    Supplemental Security Income (SSI).
4
    Annual Performance Plan (APP).


                                                                            C-1
     Types of Payments        Program         Current Status           Reason for Overpayment/Underpayment                     Classification
                                                               be reflected in the Agency’s erroneous payment rate.
    Payments issued after    OASI 5, DI,   Not currently       Dollars released after death (either electronically or in the   Unavoidable
    death                    and SSI       reflected as an     form of a paper check) that are reclaimed by the                except for
                                           error 6             Department of the Treasury or returned unendorsed,              fraud or
                                                               should not be reflected in the Agency's erroneous               misuse
                                                               payment rate. Conversely, payments made after death
                                                               that are improperly cashed or withdrawn, and are subject
                                                               to overpayment recovery, should be reported.
    Non-receipt of           OASI, DI,     Not currently       Duplicate payments issued in accordance with the                Unavoidable
    payment                  and SSI       reflected as an     Robinson-Reyf Court decision are unavoidable and                except for
                                           error               should not be reflected in the Agency's reports on              fraud or
                                                               erroneous payments. The only exception is duplicates            misuse
                                                               incorrectly sent to abusers.
    Payments based on        DI and        Not currently       Payments are not erroneous if they are the result of a          Should not be
    medical eligibility      SSI           reflected as an     medical improvement review standard or a situation              included in the
                                           error               where the beneficiary would have been ineligible had the        erroneous
                                                               law permitted retroactive ineligibility.                        payment
                                                                                                                               estimate
    Payments made for        DI and        Not currently       When program design requires that the Agency make               Unavoidable
    OASI and DI              OASI          reflected as an     payments based on estimated earnings, these payments
    beneficiaries based on                 error               should not be considered erroneous.
    earnings estimates
    Undetected error         OASI, DI,     Not currently       The Agency should not reflect undetected error in its           Should not be
                             and SSI       reported as an      erroneous payment rate unless it has evidence that a            included in the
                                           error               specific type of erroneous payment was made.                    erroneous
                                                                                                                               payment
                                                                                                                               estimate
    Duplicate payments to    Administr     Not currently       Systems do not capture when the overpayment occurs;             Avoidable
    attorneys, vendors,      ative         reported as an      however, this type of error does not meet the reporting
    and employees            Expense       error               threshold.

5
    Old-Age and Survivors Insurance (OASI).
6
 Per Office of Quality Performance (OQP), these payments can be recorded as erroneous if not returned timely per the stewardship review
protocol.


                                                                         C-2
                                                                     Appendix D

Interpretation of March 2012 Case
Scenario:

For the quarter ended March 31, 2012, the Office of Quality Performance (OQP)
identified a Supplemental Security Income recipient who was paid $5,253.00 during the
stewardship sample month May 2011. An overpayment of $1,797.28 was established
on the record as a result of the error identified during the stewardship review. The
recipient’s correct payment for May 2011 should have been $3,455.72 (which is equal to
the actual payment of $5,253.00 less the overpayment identified of $1,797.28).

OQP’s Interpretation of Guidance:

OQP believes a high-dollar overpayment would be reported when the amount is in
excess of 50 percent of what was paid to the recipient. Using the scenario above, this
amount would be 50 percent of $5,253.00, the amount the beneficiary actually received,
or $2,626.50. Since the overpayment of $1,797.28 is less than this amount, it does not
meet the criteria for reporting high-dollar overpayments.

OIG Interpretation of Guidance:

We believe a high-dollar overpayment would be reported when the amount is in excess
of 50 percent of the correct amount that should have been paid to the recipient. Using
the scenario above, this amount would be 50 percent of $3,455.72, the amount the
beneficiary should have received, or $1,727.86. Since the overpayment of $1,797.28 is
greater than this amount, it meets the criteria for reporting high-dollar overpayments.

We have requested clarification from the Office of Management and Budget on the
proper interpretation of the Executive Order and are awaiting response.
                                                                     Appendix E

Agency Comments
December 21, 2012

Subject: OIG Draft Report, "The Social Security Administration's Reporting of High-
dollar Overpayments Under Executive Order 13520 in Fiscal Year 2012"


Thank you for the opportunity to review the subject report. While the report makes no
recommendations, we have an overarching comment. The Office of Management and
Budget (OMB) previously approved a methodology for us to conduct our quarterly high-
dollar reviews, and we perform those reviews accordingly. We do not agree with your
interpretation that we are not following the OMB-approved methodology. We will
continue to conduct the high-dollar reviews using the existing methodology. In addition,
we offer several comments as they relate to specific sections of the report in the
attached track changes document. We provided minor technical comments at the staff
level and have no additional comments.


Tina M. Waddell
                                                                          Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Victoria Vetter, Director, Financial Audit Division

   Judith Kammer, Audit Manager, Financial Audit Division

Acknowledgments
In addition to those named above:

   Kelly Stankus, Senior Auditor

   Lori Lee, Senior Auditor

For additional copies of this report, please visit our Website at http://oig.ssa.gov/ or
contact the Office of the Inspector General’s Public Affairs Staff at (410) 965-4518.
Refer to Common Identification Number A-15-13-13068.
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
